TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Criminal Investigation Division Resources
                     Devoted to Supporting Recommended
                    Prosecutions Can Be Enhanced With a
                           Stronger Strategic Focus



                                          March 25, 2010

                              Reference Number: 2010-30-036




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 25, 2010



 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Criminal Investigation Division Resources
                                 Devoted to Supporting Recommended Prosecutions Can Be Enhanced
                                 With a Stronger Strategic Focus (Audit # 200810008)

 This report presents the results of our review to evaluate the growth in the Criminal Investigation
 (CI) Division’s prosecution referral pipeline inventory 1 and identify any potential actions that
 could be taken to reduce the resources devoted to this area. This audit originated from
 CI Division suggestions that we evaluate the steady increase in prosecution pipeline inventory
 over a period of years. As a result, this audit was included in our Fiscal Years 2008 and 2009
 Annual Audit Plans and addresses the major management challenge of Tax Compliance
 Initiatives.

 Impact on the Taxpayer
 The current Administration and Congress have recently begun to focus on reducing tax evasion
 as a way to reduce the tax gap and help ease the current strain on Federal budgets, potentially
 resulting in increased demand for CI Division resources. The CI Division needs stronger
 oversight and coordination, both locally and nationally, to effectively manage the prosecution
 pipeline process, help its management to make sound decisions, and identify opportunities to
 reduce the resources devoted to cases in prosecution pipeline inventory. The successful
 prosecution of a criminal tax violation deters other taxpayers who might otherwise decide to not
 comply with the tax law and promotes confidence in the United States’ tax administration system
 among taxpayers who do comply.


 1
     See Appendix VII for a glossary of terms.
                           Criminal Investigation Division Resources
                   Devoted to Supporting Recommended Prosecutions Can Be
                          Enhanced With a Stronger Strategic Focus



Synopsis
The United States Attorneys’ Offices rely on CI Division special agents to remain involved with
their cases even after referral for prosecution. The number of cases in the prosecution pipeline
increased quickly beginning in Fiscal Year 2003. This increase occurred because of increases in
the number of cases referred for prosecution, as well as declines in the number of referrals closed
with convictions. The CI Division was accustomed to having its open case inventory exceed its
prosecution pipeline case inventory, but the difference between the number of open cases and the
number of prosecution pipeline cases steadily diminished. These trends continued and, for the
first time in at least 8 years, prosecution pipeline cases exceeded the number of open cases and
prosecution pipeline cases accounted for 23.2 percent of all investigative time expended by
special agents for Fiscal Year 2008. The CI Division believed the prosecution pipeline’s
increase began when the Department of Justice shifted its operational priorities to focus on
national security issues (e.g., immigration and terrorism). In addition, the Department of Justice
experienced attorney staffing shortages nationwide. These factors limited the priority of Internal
Revenue Service (IRS) prosecutions and contributed to a lower number of prosecution pipeline
case closures. During the quarterly Business Performance Review process, the CI Division
began reporting to the IRS Commissioner’s office that it expected performance measures to
begin trending flat or cycling downward due to the need for its agents to spend time managing
the prosecution pipeline inventory.
Because an increase in the percentage of investigative time spent on cases in prosecution pipeline
status reduces the CI Division’s ability to initiate new cases or complete ongoing cases, we
believe the CI Division should expand the monitoring of prosecution pipeline issues to identify
opportunities for improvement on both a local and national basis. The CI Division has only a
limited overall strategy to materially reduce and manage the prosecution pipeline inventory.
While the steady increases in the volume of prosecution pipeline cases and percentage of
investigative time expended on prosecution pipeline cases are indicators to be used in identifying
concerns or trends, these measures alone do not provide CI Division executives sufficient
information for making sound management decisions. The CI Division’s management
information system does not capture the nature of investigative time expended on cases in
prosecution pipeline status. In addition, accumulating cases in prosecution pipeline inventory
does not necessarily mean resources are being affected on a continuing basis.

Recommendations
The Chief, CI Division, should 1) create a structured oversight and coordination system to
monitor and more effectively manage the prosecution pipeline process, 2) create an ad hoc
strategic team to develop innovative policies and procedures to ensure tax cases receive
appropriate attention and resolution by the Department of Justice, 3) develop additional

                                                                                                  2
                          Criminal Investigation Division Resources
                  Devoted to Supporting Recommended Prosecutions Can Be
                         Enhanced With a Stronger Strategic Focus


techniques that refine the prosecution pipeline volume and investigative time performance
measures and expand the information available for management purposes, and 4) ensure that
necessary information is added to the quarterly Business Performance Reviews to provide the
IRS Commissioner a clear depiction of the investigative resources devoted to prosecution
pipeline inventory activities.

Response
IRS management agreed with two recommendations, providing an alternate corrective action on
one, and disagreed with the other two recommendations. The CI Division realizes it needs to
ensure management is providing the necessary oversight and direction to effectively manage the
pipeline inventory. Effective management and oversight is a priority for all of the CI Division’s
investigative processes and programs, but administering the pipeline inventory is unique in that
many external factors control the progression of an investigation through the adjudication
process.
The CI Division agreed with the finding relating to Recommendation 1, but will implement a
corrective action different from the recommendation to address the concerns we raise in the
report, and agreed with Recommendation 2. The CI Division will create a strategic team to
examine how a more structured approach to the oversight process can be implemented that will
support a consistent pipeline methodology within all CI Division management levels. The
strategic team will identify best practices implemented by field offices for the development of
innovative policies and procedures, as well as evaluate circumstances where delays in
prosecution cause the pipeline inventory to become unmanageable.
The CI Division does not agree with Recommendations 3 and 4 because modifying the CI
Management Information System (CIMIS) to differentiate between time expended on
management tasks and time expended on investigative actions would be cost prohibitive and
would not impact the prosecution pipeline process. The CI Division explained that all
investigative activity should at a minimum indirectly impact the progression of an investigation
and would have to be timely completed regardless of how time is allocated. In addition, the
CI Division will continue to rely on observations and comments provided by the Deputy
Commissioner for Services and Enforcement to supplement pipeline inventory information
contained in the Business Performance Review. CI Division management (and the
Commissioner’s Office) is aware that seeing a case through prosecution requires significant steps
beyond making a prosecution recommendation. Extensive pipeline analyses and Business
Performance Review talking points are provided to the Chief, Criminal Investigation, Deputy
Chief, and Directors, as needed, for reference/discussion in delivering the Business Performance
Reviews to the Deputy Commissioner for Services and Enforcement. Management’s complete
response to the draft report is included as Appendix VIII.


                                                                                                    3
                          Criminal Investigation Division Resources
                  Devoted to Supporting Recommended Prosecutions Can Be
                         Enhanced With a Stronger Strategic Focus



Office of Audit Comment
We believe the CI Division’s alternate action of examining, rather than specifically agreeing to
create, a more structured oversight and coordination system will address the concerns we raise in
the report related to Recommendation 1. An evaluation of various options is inherently a
prerequisite to creating any structured system.
The CI Division’s disagreement with Recommendation 3 is focused too narrowly on whether it is
feasible to modify the CIMIS to differentiate between the nature of activities for expended time.
We concede the CI Division’s conclusion that attempting to separately account for the nature of
special agents’ time would not be effective. Our recommendation did not specify such a CIMIS
modification. Rather, our recommendation was to develop additional data analysis and summary
reporting techniques, which can be based on the CIMIS data that are already available. We
reported examples that we believe show how the pipeline investigative time percentage
measurement is nearly meaningless because of the variety of activities that get attributed to
pipeline status. Any assumptions about the nature of the investigative time that makes up the
prosecution pipeline percentage of total investigative time would inherently be misleading
without determining underlying characteristics. For that reason, we continue to believe that the
existing performance measures alone do not provide CI Division executives sufficient
information for making sound business decisions.
Regarding the CI Division’s disagreement with Recommendation 4, we understand that
CI Division management and the Commissioner’s Office are aware of the degree to which
special agents continue to assist Federal prosecutors beyond making a prosecution
recommendation. However, as explained in the report and in our comment regarding
management’s response to Recommendation 3, we believe escalating volumes and percentages
in the prosecution pipeline performance measures do not clearly depict to what extent the
CI Division’s ability to balance its investigative workload is hindered by the requirements of
successful adjudication of a case. Considering that a variety of investigative activities are
applicable to prosecution pipeline status cases, resource use attributed to the pipeline cannot
safely be assumed to be for the relatively advanced stages of administering the pipeline inventory
or preparing the Government’s case for indictment or trial. We believe the CI Division’s manner
of reporting their concerns about the demand for resources required to manage pipeline inventory
could imply that pipeline inventory investigative time primarily relates to the advanced stages of
prosecution. We do not believe that to be an accurate depiction. As reported, while the Business
Performance Reviews are not publicly disseminated, it is possible that the statistics and
statements could be conveyed to outside stakeholders.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.
                                                                                                4
                                 Criminal Investigation Division Resources
                         Devoted to Supporting Recommended Prosecutions Can Be
                                Enhanced With a Stronger Strategic Focus




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Stronger Oversight and Coordination Is Needed to Effectively Manage
          the Prosecution Pipeline Process ..................................................................Page 5
                    Recommendations 1 and 2: ..............................................Page 9

          More Relevant Performance Measures Are Needed to Make
          Management Decisions and Provide a Clear Message to Stakeholders ...... Page 9
                    Recommendation 3:........................................................Page 14

                    Recommendation 4:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – The Flow of Cases in the Prosecution Pipeline ...................Page 21
          Appendix V – Criminal Investigation Division Performance Statistics .......Page 22
          Appendix VI – Status of 4,152 Prosecution Pipeline Cases
          As of July 31, 2008 .......................................................................................Page 23
          Appendix VII – Glossary of Terms ..............................................................Page 25
          Appendix VIII – Management’s Response to the Draft Report ...................Page 27
                Criminal Investigation Division Resources
        Devoted to Supporting Recommended Prosecutions Can Be
               Enhanced With a Stronger Strategic Focus




                     Abbreviations

AUSA           Assistant United States Attorney
CI             Criminal Investigation
CIMIS          Criminal Investigation Management Information System
DOJ            Department of Justice
FY             Fiscal Year
IRS            Internal Revenue Service
USAO           United States Attorneys’ Office
                                Criminal Investigation Division Resources
                        Devoted to Supporting Recommended Prosecutions Can Be
                               Enhanced With a Stronger Strategic Focus




                                                Background

The Internal Revenue Service (IRS) Criminal Investigation (CI) Division investigates potential
criminal violations of the Internal Revenue Code and related financial crimes (e.g., money
laundering, corporate fraud, and terrorism financing) to promote compliance with the tax law and
confidence in the United States’ tax administration system. When the CI Division concludes that
a criminal violation has occurred, a prosecution recommendation report is prepared. The report
logically presents the evidence to support a recommendation for criminal prosecution and is
referred to the Department of Justice (DOJ) for action. Law enforcement organizations, such as
the CI Division, do not have the authority to charge people with crimes, negotiate plea
agreements, or place individuals on trial. Federal indictments 1 and prosecutions are conducted
by the DOJ, normally by attorneys of the various United States Attorneys’ Offices (USAO)
across the country. Where a case is initially sent depends on whether the alleged criminal
violations are for tax statutes or the alleged violations are for nontax statutes. Appendix IV
illustrates the flow of IRS referrals to the DOJ Tax Division or USAOs.
To help prepare the Federal Government’s basis for indictment and possible trial, CI Division
special agents remain involved with the referred cases. The USAOs rely on special agents to
collect additional information, interview witnesses and prepare them to testify, prepare exhibits
for trial, and assist in court procedures as legal actions progress. Tax evasion cases can involve
complexities which require special agents to provide expert assistance throughout the legal
process. After referral, the CI Division categorizes cases as being within its prosecution pipeline
inventory until the DOJ prosecution efforts are completed. For example, charges are dropped,
pleas are negotiated, or the court arrives at a conviction, acquittal, or dismissal.
However, the prosecution pipeline phase is the stage in a criminal prosecution when the
CI Division no longer has control over making decisions on case progress. Once cases are
referred, DOJ attorneys decide the prosecution strategy, evaluate the legal circumstances, and
present the time periods for action. The DOJ’s prosecutorial emphasis focuses on significant
national issues and, therefore, there is limited availability of Assistant United States Attorneys
(AUSA) to focus on cases where all alleged criminal violations relate to tax statutes only. In
complex situations, it is not unusual for cases to be in the prosecution pipeline for multiple years
and incur hundreds of hours of investigative time on the violations prosecuted. Therefore, a high
value for investigative time or elapsed days in the prosecution pipeline does not mean that a
prosecution recommendation had been conducted inefficiently.
While the IRS and USAOs benefit from a close working relationship to help fight financial
crime, the CI Division became concerned that its overall workload would be affected by the

1
    See Appendix VII for a glossary of terms.
                                                                                             Page 1
                                                                          Criminal Investigation Division Resources
                                                                  Devoted to Supporting Recommended Prosecutions Can Be
                                                                         Enhanced With a Stronger Strategic Focus


steady growth from 2,733 prosecution pipeline cases at the end of Fiscal Year (FY) 2002 to more
than 4,000 cases during FY 2007. The CI Division declared that the expected volumes of new
and completed cases for FY 2008 and forward may not materialize because of the high volume
of cases in the prosecution pipeline that required special agents’ time.
For the past several years, the CI Division was accustomed to having its open case inventory
exceed its prosecution pipeline case inventory. As shown in Figure 1, the number of cases in the
prosecution pipeline increased quickly beginning in FY 2003. This increase occurred because
FYs 2002 and 2003 had declines in the number of cases closed with convictions, and FYs 2003
and 2004 had increases each year in the number of cases referred for prosecution (see
Appendix V). In FY 2004, the CI Division experienced a sharp decline in the number of open
cases. As a result, the difference between the number of open cases and the number of
prosecution pipeline cases steadily diminished. These trends continued and, for the first time in
at least 8 years, prosecution pipeline cases exceeded the number of open cases. Appendix VI
shows that the 4,152 cases in prosecution pipeline status as of July 31, 2008, were nearly equally
divided between tax or nontax, and indicted or not indicted. It also presents additional
information about the number of days elapsed and amounts of investigative time charged since
the IRS made the referrals. After peaking in FY 2008, the prosecution pipeline cases decreased
by about 5 percent during the first half of FY 2009 to 3,906 cases and remained near that level at
the end of FY 2009 at 3,915 cases.
Figure 1: Case Volumes, Percentage of Investigative Time Spent on Prosecution
           Pipeline Cases, and Number of Field Office Special Agents
                                                   5,000                                                                                             63


                                                   4,500
                       Numbers of Special Agents
  Volumes of Cases /




                                                   4,000                                                                                             50


                                                   3,500


                                                   3,000                                                                                             38


                                                   2,500
                                                                                                                                                         Percentage of Investigative Time




                                                   2,000                                                                                             25


                                                   1,500


                                                   1,000                                                                                             13


                                                    500


                                                      0                                                                                              0
                                                             99




                                                                                                     04
                                                                     00




                                                                             01




                                                                                     02




                                                                                             03




                                                                                                             05




                                                                                                                     06




                                                                                                                             07




                                                                                                                                     08




                                                                                                                                             09
                                                           19




                                                                   20




                                                                                                   20
                                                                                   20




                                                                                           20




                                                                                                           20




                                                                                                                   20




                                                                                                                                           20
                                                                           20




                                                                                                                           20




                                                                                                                                   20
                                                      FY




                                                                  FY




                                                                                                          FY




                                                                                                                  FY
                                                                                  FY




                                                                                          FY




                                                                                                  FY




                                                                                                                                  FY




                                                                                                                                          FY
                                                                          FY




                                                                                                                          FY




Source: The CI Division’s Business Performance Reviews and its analysis of staffing information.

                                                                                                                                                  Page 2
                           Criminal Investigation Division Resources
                   Devoted to Supporting Recommended Prosecutions Can Be
                          Enhanced With a Stronger Strategic Focus


The CI Division believed the prosecution pipeline’s increase began when the DOJ shifted its
operational priorities to focus on national security issues (e.g., immigration and terrorism). This
shift in focus potentially caused DOJ attorneys to spend more case time on these significant
cases. In addition, the DOJ experienced attorney staffing shortages nationwide. For example, an
estimate reflected that at one point during FY 2006, there were 765 AUSA vacancies which were
approximately 13.5 percent of authorized positions. As a result, some CI Division field offices
reported these factors limited the priority of IRS prosecutions and contributed to a lower number
of prosecution pipeline case closures.
As the prosecution pipeline volume increased, so did the percentage of investigative time
expended by the special agents. In FY 2008, special agents spent 23.2 percent of their
investigative time on prosecution pipeline cases, leaving 76.8 percent of investigative time
available for initiating new cases or working ongoing cases. In contrast, special agents spent
14.5 percent of their investigative time on prosecution pipeline cases in FY 2002, leaving
85.5 percent of investigative time available for other cases. CI Division management
acknowledged that a certain amount of investigative time is always necessary to manage the
prosecution pipeline inventory and essential for successful prosecutions. However, prosecution
pipeline investigative time was defined by the fact that the case had been referred to the DOJ.
There was no separation between time spent on maintenance tasks such as keeping information
current, monitoring the continued viability of the recommended charges, or otherwise sustaining
the cases while they waited for DOJ resources, as contrasted with time spent by special agents on
continued original investigative steps contributing to the prosecution effort.
During the FY 2008 quarterly Business Performance Review process, the CI Division began
reporting to the IRS Commissioner’s office that, “decreased agent staffing, increased complexity
of our investigations, and the demand for resources required to manage the pipeline inventory
has and will continue to have a negative impact on our current investigative activity.”
CI Division management cautioned that performance measures (such as initiations, completions,
prosecution recommendations, and convictions) might begin trending flat or cycling downward
due to the need for their agents to spend time managing the prosecution pipeline inventory.
Throughout these reviews, the CI Division reported that, “materially reducing the pipeline
inventory remains an issue of paramount importance.”
This audit was performed during the period August 2008 through April 2009 by contacting
CI Division personnel at the IRS National Headquarters in Washington, D.C., and the field
offices in Chicago, Illinois; New York, New York; and Charlotte, North Carolina. We also
contacted USAO officials of the Northern District of Illinois (Chicago, Illinois); the
Southern District of New York (Manhattan, New York); the Eastern District of New York
(Brooklyn, New York); and the Eastern District of North Carolina (Raleigh, North Carolina).
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. Nearly 80 percent of this audit’s scope population
                                                                                            Page 3
                          Criminal Investigation Division Resources
                  Devoted to Supporting Recommended Prosecutions Can Be
                         Enhanced With a Stronger Strategic Focus


included grand jury cases. Because of grand jury secrecy rules, the CI Division cannot provide
us with specific documentation or information relating to these cases. Given this grand jury
scope limitation, we designed our audit steps to not rely on a review of grand jury investigation
information. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 4
                             Criminal Investigation Division Resources
                     Devoted to Supporting Recommended Prosecutions Can Be
                            Enhanced With a Stronger Strategic Focus




                                   Results of Review

Stronger Oversight and Coordination Is Needed to Effectively Manage
the Prosecution Pipeline Process
While the CI Division recognizes the steady growth of the prosecution pipeline inventory as an
issue of high importance, it has only a limited overall strategy to materially reduce and manage
the inventory. The CI Division’s concern is that increases in the percentage of investigative time
spent on cases in prosecution pipeline status reduce its ability to initiate new cases or complete
ongoing cases, thereby making it difficult to balance its investigative workload. However, if the
CI Division expects to materially reduce the affect of the prosecution pipeline on its current
investigative workload, significant issues must be actively considered on a strategic level. The
Standards for Internal Control in the Federal Government 2 addresses management’s need to
comprehensively identify risks and consider all significant interactions at both the entity-wide
and activity levels. Risks should be analyzed for their possible effect and decisions made on
what actions should be taken.

Only a limited overall strategy exists to materially reduce the prosecution pipeline
inventory
In its first quarterly FY 2009 Business Performance Review report, the CI Division indicated it
had “placed greater emphasis on the material reduction of the pipeline inventory, which remains
an issue of paramount importance.” However, the only formal emphasis described by
CI Division’s management was the addition of a generally worded performance commitment for
FY 2009 in the field office managers’ expectations to emphasize material prosecution pipeline
reductions. During our interviews, field office managers indicated that CI Division Headquarters
management did not communicate or specify techniques or practices on how to meet the
commitment. As a result, each office’s management cadre is left to determine what is applicable
to their particular locations. In the final quarterly FY 2009 Business Performance Review report,
the CI Division summarized that prosecution pipeline inventory was reduced by recommending
dismissal of investigations no longer considered viable for prosecution. At the end of FY 2009,
there were 203 fewer pipeline cases than at the beginning of the fiscal year, and there had been
115 more case dismissals as compared to the prior year.
While creating a performance commitment and dismissing cases that are no longer viable for
prosecution are ways to reduce the prosecution pipeline inventory, the CI Division did not have
an overall, coordinated strategy. Even though field office management has responsibility for

2
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                           Page 5
                           Criminal Investigation Division Resources
                   Devoted to Supporting Recommended Prosecutions Can Be
                          Enhanced With a Stronger Strategic Focus


determining appropriate local action, successful techniques to reduce the prosecution pipeline
inventory should be developed and communicated throughout the CI Division. While local
knowledge is indispensable, the identification and use of best practices to reduce the prosecution
pipeline inventory will provide opportunities to assist field office management in achieving
desired expectations.
We did not identify any other overall strategies that the CI Division had implemented even
though both the IRS and DOJ personnel we consulted described long-standing challenges that
exist in the working relationship between the two organizations. Some of the most influential
challenges are that the IRS’ tax priorities do not align directly with the usual DOJ priorities and
the significant nontax demands upon finite USAO resources. For example, we determined
during our interviews there was a common belief that, at times, there was “limited enthusiasm”
for traditional criminal tax cases among some AUSAs as they prioritized their caseloads. We
were advised that some AUSAs may not have high interest in tax cases due to various reasons,
including their preference for drug, currency, or money laundering cases from the IRS, their
inexperience with the inherent intricacy of tax litigation cases, or their perception of the general
deterrent potential of a tax crime prosecution. Some USAOs regulate the volume of IRS
referrals in these tax cases by raising the suggested dollar threshold for taking prosecution action
in a particular judicial district. Another scenario presented was that, at times, an AUSA’s first
choice was to delay the basic tax cases (i.e., return preparer and refund fraud) if enough time
remained on the statutory limitations period for an indictment. These situations appear to be
more likely to occur in large metropolitan locations where there might be more overall crime to
address and more law enforcement agencies competing for a USAO’s attention.

A coordinated system is not in place to manage the prosecution pipeline
inventory
During our interviews with CI Division field office managers, as well as USAO officials, we
determined there was a common belief that the efficiency of moving cases through the
prosecution pipeline phase was mostly influenced by the individual relationships established
between the local CI Division management and USAO personnel. The CI Division field office
managers arrange meetings with the USAOs within the judicial districts of their field offices to,
among other things, discuss the IRS’ investigative priorities. However, the frequency of these
contacts on an annual basis is limited. At the Headquarters level, there were regular meetings as
part of a DOJ/IRS Strategic Planning Commission, though we were advised these meetings did
not focus on prosecution pipeline processing issues. To facilitate the processing of prosecution
recommendations, more extensive communication was to occur on a case-by-case basis between
the AUSAs, special agents, and supervisory agents. Whenever necessary, significant problems
in maintaining progress on a case could be elevated within the CI Division management chain
for resolution with the corresponding USAO management level. This effort is clearly an
appropriate and necessary practice. However, it may not always occur timely. Our review of
documentation for a judgmental sample of 38 nongrand jury tax cases identified significant

                                                                                             Page 6
                          Criminal Investigation Division Resources
                  Devoted to Supporting Recommended Prosecutions Can Be
                         Enhanced With a Stronger Strategic Focus


delays and gaps in communication of 6 months to 16 months between the agents and the
assigned AUSAs in 13 (34 percent ) of the 38 cases.
For FYs 2008 and 2009, the CI Division Headquarters relied on their field office managers to
engage more with their USAO counterparts as a strategic effort to reduce prosecution pipeline
inventory. The CI Division Headquarters assessment of that effort was that “some are better than
others” at cultivating effective relationships. The managers we interviewed generally described
that they recognize the importance of establishing an effective rapport and they make a concerted
effort to enhance healthy working relationships with their USAO counterparts. Occasional
comments in our interviews indicated that some personnel believed there were instances where
relationships had a detrimental effect on moving cases through the prosecution pipeline phase.
Another factor some personnel believed might be creating a detrimental effect on effective
relationships is the frequency of management rotations at CI Division field offices, thus
hindering a relationship building effort at those levels.
We support the CI Division’s emphasis that all levels, from case agents up through field office
executive managers, must continuously communicate with their USAO counterparts. However,
we believe the CI Division should expand the monitoring of prosecution pipeline inventory
issues to identify opportunities for improvement on both a local and national basis. The
CI Division routinely uses coordinators to serve as subject matter experts and facilitate
investigative processes. A similar concept could be introduced for managing prosecution
pipeline inventory issues. For example, at the national level, a coordinator could assist with
developing guidelines for timely followup with the AUSAs or triggers for management
involvement. A local level coordinator could then monitor compliance with established
followup guidelines.




                                                                                          Page 7
                                 Criminal Investigation Division Resources
                         Devoted to Supporting Recommended Prosecutions Can Be
                                Enhanced With a Stronger Strategic Focus


                               Figure 2: Potential Roles for Coordinators

    National Level          Local Level
                                                                             Example of Activities
      Activities             Activities

                                               Current Headquarters level liaison could be expanded to pursue DOJ buy-in to IRS
 Develop a strategy      Apply the strategy
                                               action items designed for mutual benefit.

                         Serve as a subject
                                               Awareness of which USAOs support certain techniques, such as whether bundling
 Monitor and             matter expert on
                                               of refund fraud charges for media attention during the filing season could identify
 coordinate activities   local USAO
                                               areas for improvement.
                         matters

                                               Useful data could help manage the program and clarify prosecution pipeline
 Compile nationwide      Compile local data
                                               measures. For example, an analysis of the ways that a 5 percent reduction in
 data and statistics     and statistics
                                               prosecution pipeline inventory was achieved in the first half of FY 2009.

 Enhance working         Enhance working       In addition to being an advocate for the progression of criminal cases, be an
 relationships with      relationships with    accessible liaison for USAO inquiries on the potential tax code implications of
 DOJ Headquarters        local USAOs           ongoing, non-IRS cases.
                         Brief and advise
 Brief and advise the                          Regular assessments of the ongoing nature of IRS criminal prosecution
                         CI Division field
 Chief, CI Division                            recommendations are necessary to allow sound decisions.
                         office managers
                         Assist in resolving
 Evaluate unresolved                           Should not remove the special agent and supervisory agent from case management
                         conflicts between
 issues having a                               responsibilities, but can assess the situation for consistent treatment, acceptable
                         agents and
 nationwide impact                             resolutions, or the need to elevate to a higher level.
                         attorneys
                                               For example, one field office had developed a periodic “top-10” list of priority
                         Suggest best
 Evaluate and share                            prosecution pipeline cases from the IRS perspective that executive management
                         practices for
 best practices                                discussed with the USAO. One field office had an agent as a liaison present at
                         evaluation
                                               local USAOs on a rotating basis.
Source: Our knowledge of the CI Division’s various coordinator positions and interviews with CI Division
management.

 We recognize that sometimes tax cases may not warrant high-priority treatment within a
 USAO’s workload. In April 2007, the then IRS Commissioner acknowledged that the USAOs
 have to run a balanced program and, obviously, there are higher priorities than tax prosecutions.
 However, we believe the CI Division should manage its prosecution pipeline processing
 activities on a more strategic level. This additional emphasis is important because the
 Administration and Congress have recently begun to focus on reducing tax evasion as a way to
 reduce the tax gap and help ease the current strain on Federal budgets caused by the economy,
 potentially resulting in increased demand for CI Division resources.




                                                                                                                         Page 8
                           Criminal Investigation Division Resources
                   Devoted to Supporting Recommended Prosecutions Can Be
                          Enhanced With a Stronger Strategic Focus


Recommendations
The Chief, CI Division, should:
Recommendation 1: Create a structured oversight and coordination system at National
Headquarters, at each geographic area Field Operations Office, and at select field office locations
that handle the most complex judicial workloads, to monitor and more effectively manage the
prosecution pipeline process.
       Management’s Response: IRS management agreed with this finding but will
       implement a corrective action different from the recommendation. The CI Division
       recognizes that management and oversight of investigations in the pipeline status is
       imperative to ensure the appropriate investigative decisions are being made in a manner
       that is commensurate with the timely and successful prosecution of the investigation.
       The CI Division will examine the creation of a structured oversight and coordination
       system to monitor and more effectively manage the prosecution pipeline process.
       Office of Audit Comment: We believe the CI Division’s alternate action of
       examining, rather than specifically agreeing to create, a more structured oversight and
       coordination system will address the concerns we raise in the report. An evaluation of
       various options is inherently a prerequisite to creating any structured system. Therefore,
       a thoughtful examination of this issue by the CI Division should result in determining
       what specific actions are warranted.
Recommendation 2: Create an ad hoc strategic team to develop innovative policies and
procedures to ensure tax cases receive appropriate attention and resolution by the DOJ.
       Management’s Response: IRS management agreed with this recommendation. The
       CI Division will create a strategic team to examine how a more structured approach to the
       oversight process can be implemented as referred to in Recommendation 1 that will
       support a consistent pipeline methodology within all CI Division management levels.
       The methodology will define the pertinent progression of management involvement to
       ensure tax cases receive the appropriate attention and resolution by the DOJ. The
       strategic team will also identify best practices implemented by field offices for the
       development of innovative policies and procedures, as well as evaluate circumstances
       where delays in prosecution cause the pipeline inventory to become unmanageable.

More Relevant Performance Measures Are Needed to Make
Management Decisions and Provide a Clear Message to Stakeholders
The CI Division uses two measures to assess the performance of the prosecution pipeline
process: the volume of prosecution pipeline cases, and the direct investigative time expended on
prosecution pipeline cases. While these measures are indicators to be used in identifying

                                                                                            Page 9
                           Criminal Investigation Division Resources
                   Devoted to Supporting Recommended Prosecutions Can Be
                          Enhanced With a Stronger Strategic Focus


concerns or trends, they alone do not provide CI Division executives sufficient information for
making sound management decisions. Although the CI Division portrayed the steady increases
in these two measures as having reached critical levels that directly affect its ability to initiate
new investigations or complete ongoing ones, the relevance of those measures is diminished by a
closer analysis of the data. The Standards for Internal Control in the Federal Government
dictate that activities need to be established to monitor performance measures and indicators.
These controls could call for comparisons and assessments relating different sets of data to one
another so that analyses of the relationships can be made and appropriate actions taken. Controls
should also be aimed at validating the propriety and integrity of organizational performance
measures and indicators.

The CI Division’s management information system does not capture the nature of
the investigative time expended on cases in the prosecution pipeline phase
In FY 2008, the CI Division reported that 23.2 percent of all investigative time was applied to
prosecution pipeline cases, indicating this percentage was too significant a portion of the total
investigative time available. At the end of FY 2009, the CI Division reported that increased
resources had been devoted to the prosecution of investigations in prosecution pipeline inventory
during FYs 2008 and 2009, but the annual measurement of prosecution pipeline time for
FY 2009 went down only slightly to 22.3 percent of all investigative time. General assessments
based on this measurement of investigative time are nearly meaningless because pipeline status
is defined simply by the fact that the case had been referred to the DOJ and thus the measure
includes time spent by special agents on cases under a variety of circumstances.
For example, prosecution pipeline time includes tasks necessary to manage cases as they await
legal action, such as contacting the AUSAs to determine the case status, ensuring the continued
availability of witnesses during periods when attorneys are not actively working the case, and
documenting case activity as required for periodic supervisory workload reviews. At the same
time, prosecution pipeline time includes activities that are original investigative steps, such as
assisting an AUSA by completing a request for additional information, attending court hearings,
and preparing for trial. The CI Division cannot rely on this measure to focus on improving the
efficiency of the time charged by special agents regarding the relatively basic tasks necessary to
monitor and manage their prosecution pipeline cases because there currently is no way to
separate the nature of hours applied to a prosecution pipeline case. Likewise, the CI Division
cannot rely on this measure to disclose the actual portion of investigative time spent on cases that
are developed into prosecution referrals to assist USAO prosecutors achieve a successful
prosecution. Of the 4,152 cases in the prosecution pipeline as of July 31, 2008, there were
2,043 (49 percent) cases that had reached indictment status. Our analysis showed that
21.5 percent of the total investigative time on the 2,043 cases was applied during prosecution
pipeline status just to obtain the indictment. Taking into consideration the additional
investigative time that was applied after the indictments, the percentage increased
(to 36.6 percent) and will ultimately be higher by the time these cases are fully decided in court.

                                                                                            Page 10
                                Criminal Investigation Division Resources
                        Devoted to Supporting Recommended Prosecutions Can Be
                               Enhanced With a Stronger Strategic Focus


  In fact, very large amounts of investigative time can occur during prosecution pipeline status in
  complex and high-profile cases. Figure 3 reflects how these types of cases can inflate the annual
  prosecution pipeline investigative time measure. Each example case was a high profile and
  widely reported Federal investigation with the vast majority of the investigative time occurring
  in the prosecution pipeline.
           Figure 3: Examples of Large Scale Cases in Prosecution Pipeline Status
                                                                                                        Percentage of
                                   Hours Before      Hours From         Hours After
                                                                                                        Total Hours in
 Case Number      Program Area     IRS Referral     IRS Referral to    Indictment to    Total Hours
                                                                                                         Prosecution
                                    to the DOJ        Indictment       July 31, 2008
                                                                                                          Pipeline 3

       1




Source: Our analysis of the CI Management Information System (CIMIS).

  In addition, in certain situations, the CI Division updates new cases almost immediately to
  prosecution pipeline status. For example, this scenario occurs when a USAO asks for the
  CI Division’s assistance in joining another Federal agency’s ongoing grand jury investigation.
  Another situation is when additional culpable persons are identified and added as related cases to
  a CI Division case that has already been referred. As a result, these types of cases had nearly all
  their investigative time recorded as occurring in the prosecution pipeline phase, distorting the
  measurements of prosecution pipeline activities in the sense that normally the CI Division
  initially conducts an investigation, next develops a prosecution recommendation, and then incurs
  prosecution pipeline status investigative time.
  Figure 4 shows that 546 (13.2 percent) of the 4,152 cases went into prosecution pipeline status
  within only 10 calendar days or less from the date the case was initiated. In addition, there were
  971 (23.4 percent) cases 4 that went into prosecution pipeline status within 50 calendar days or
  less from the date the case was initiated. Figure 4 also shows the majority of these cases had
  zero hours charged prior to prosecution pipeline status and were narcotics and money laundering
  cases. This situation is likely because the narcotics and money laundering programs are usually



  3
   Percentage derived by adding hours before and after indictment and dividing by the total hours.
  4
   This number includes the 546 cases that went into a pipeline status within only 10 calendar days or less from the
  date the case was initiated.
                                                                                                             Page 11
                               Criminal Investigation Division Resources
                       Devoted to Supporting Recommended Prosecutions Can Be
                              Enhanced With a Stronger Strategic Focus


of high interest to the USAOs and are prone to the identification of additional culpable persons
during the course of an investigation.
         Figure 4: Cases That Quickly Went Into Prosecution Pipeline Status

                                                 Prosecution Pipeline    Cases to the USAO     Cases to the USAO
                                                    Inventory on        in 50 Calendar Days   in 10 Calendar Days
                                                    July 31, 2008              or Less               or Less
                Number of Cases                         4,152                   971                   546
      Percentage of the Prosecution Pipeline
                                                     100 percent            23.4 percent          13.2 percent
                    Inventory
   Number With Zero Hours Prior to Prosecution
                                                         747                    648                   512
                Pipeline Status
       Percentage With Zero Hours Prior to
                                                      18 percent            66.7 percent          93.8 percent
           Prosecution Pipeline Status
        Percentage of Investigative Time in
                                                      24 percent            90.6 percent          98.6 percent
            Prosecution Pipeline Status

       Portions That Are Money Laundering            45.1 percent           72.1 percent          76.2 percent

       Portions That Are Narcotics Related           21.7 percent           48.7 percent          57 percent

 Source: Our analysis of the CIMIS.

In contrast, the data for the other 3,181 cases in the prosecution pipeline (4,152 less 971) reflect a
more usual pattern where the CI Division first expends time to conduct the investigation and then
subsequently develops a prosecution recommendation. These 3,181 cases were normally
investigated by the CI Division for more than 15 months and had more than 580 hours of
investigative time incurred before referral to the DOJ.

Accumulating cases in prosecution pipeline inventory does not necessarily mean
the CI Division’s resources are being affected on a continuing basis
In some instances, prosecution pipeline cases reach a point where there is no expectation that
imminent actions will complete the legal process, so the CI Division can only remain ready to
assist the prosecuting attorneys if circumstances or the attorney’s strategy changes and the cases
become ready to proceed toward completion. For example, the subject of an investigation may
be a fugitive or a cooperating witness in another case. Another situation is when several cases
are related, it might be that none of the individual cases are finalized until all the cases can be
finalized. In addition, a prosecutor’s strategy might be to keep the case open and continue to
negotiate for the subject’s cooperation or change in plea. The CI Division has always omitted
cases involving fugitives from the reported prosecution pipeline inventory counts. Leaving
inactive cases in the prosecution pipeline inventory count exaggerates the number of active cases
that the CI Division might be addressing.


                                                                                                            Page 12
                                  Criminal Investigation Division Resources
                          Devoted to Supporting Recommended Prosecutions Can Be
                                 Enhanced With a Stronger Strategic Focus


As shown in Figure 5, the investigative time in prosecution pipeline status for cases at the
USAOs was normally 1 year. However, almost 11 percent of the inventory remained unfinished
in the prosecution pipeline 3 years or longer from the referral date, many of which had reached
indictment. Of those 448 cases, 82.6 percent did not have any change in status within the
previous year, and many had little additional investigative time applied to them during the
previous 28 months (29.5 percent with 10 hours or less total and 50.4 percent with an average of
3 hours or less per month during that time). As part of the CI Division’s efforts to reduce the
prosecution pipeline inventory volume in FY 2009, it recommended dismissal of money
laundering investigations and investigations where more than 3 years had passed since the
indictment. The CI Division cited subject or witness issues as reasons for the dismissals.
              Figure 5: Cases in the Prosecution Pipeline for Multiple Years
                                                Prosecution Pipeline   Cases in Prosecution   Cases in Prosecution
                                                   Inventory on              Pipeline               Pipeline
                                                   July 31, 2008        2 Years or Longer      3 Years or Longer

 Number of Cases                                       4,152                   908                    448
 Percentage of Prosecution Pipeline Inventory       100 percent            21.9 percent           10.8 percent

 Median Years in Prosecution Pipeline Status           1 year                3 years               3.9 years
 Percentage With No Status Change Within the
                                                    32.3 percent           77.2 percent           82.6 percent
 Previous 1 Year
 Percentage With Investigative Time Applied
 During the Previous 28-Month Period of:
 10 Hours or Less Total                             4.5 percent            19.9 percent           29.5 percent
 3 Hours or Less Per Month on Average
                                                    9.7 percent             39 percent            50.4 percent
 (84 Total)

Source: Our analysis of the CIMIS.

Our analyses determined the prosecution pipeline process included a variety of circumstances
that diminishes the relevance of the performance indicators currently used by the CI Division and
communicated to the IRS Commissioner. While the CI Division’s program reports in the
Business Performance Reviews are not publicly disseminated, it is possible that these statistics
and statements could be conveyed to outside stakeholders. For example, in February 2007, the
United States Senate Committee on Finance asked the IRS for information about the perception
that the DOJ might have been prosecuting an insufficient number of IRS criminal referrals. The
Committee was concerned that such circumstances could potentially lead to increased criminal
behavior because taxpayers think the chances of being criminally sanctioned are low. More
recently, in October 2009, within the context of the high degree of interest in tax law
enforcement on international tax havens, Congress considered a legislative amendment to specify
that the DOJ should direct enough money to the Tax Division to ensure a backlog of inactive
cases does not develop due to a lack of resources. For these reasons, we believe the CI Division
needs to communicate a clear message about its prosecution pipeline role and situation, making
                                                                                                         Page 13
                           Criminal Investigation Division Resources
                   Devoted to Supporting Recommended Prosecutions Can Be
                          Enhanced With a Stronger Strategic Focus


internal and external stakeholders aware of the degree that special agents continue to assist
Federal prosecutors. In addition, it is important that the CI Division develop ways to refine its
measuring and reporting of the potential affects of the extent that investigative time is spent
monitoring or managing a prosecution pipeline case versus actively working on a case to assist
the DOJ attorneys to a successful prosecution.

Recommendations
The Chief, CI Division, should:
Recommendation 3: Develop additional data analysis and summary reporting techniques that
refine the prosecution pipeline volume and investigative time performance measures, and expand
the information available for management purposes.
       Management’s Response: IRS management disagreed with this recommendation
       because modifying the CIMIS to differentiate between time expended on management
       tasks and time expended on investigative actions would be cost prohibitive and would not
       impact the prosecution pipeline process. The CI Division explained that all investigative
       activity should at a minimum indirectly impact the progression of an investigation and
       would have to be timely completed regardless of how time is allocated. Pipeline direct
       investigative time measures the amount of actual time utilized on cases that are in
       pipeline status. Regardless of whether it is full-blown activity or simple management
       activity, the time for the specific activity required, whatever that may be, would be
       reported as pipeline direct investigative time.
       Office of Audit Comment: The CI Division’s disagreement with our recommendation
       is focused too narrowly on whether it is feasible to modify the CIMIS to differentiate
       between the nature of activities for expended time. We concede the CI Division’s
       conclusion that attempting to separately account for the nature of special agents’ time
       would not be effective. Our recommendation did not specify such a CIMIS modification.
       Rather, our recommendation was to develop additional data analysis and summary
       reporting techniques, which can be based on the CIMIS data that are already available.
       As we reported, we believe the relevance of the existing prosecution pipeline
       performance measures is diminished by a closer analysis of the data. For example,
       comparing the type of investigation with how quickly it was placed into prosecution
       pipeline status reveals that many money laundering and narcotics related cases had all or
       nearly all of the case investigative time charged to pipeline status. The frequency of this
       scenario would drive upward the percentage of investigative time applied on prosecution
       pipeline cases even though it was the CI Division’s initial work on the cases. A
       contrasting scenario would be when the CI Division conducts an investigation, develops a
       prosecution recommendation, and then subsequently devotes time in prosecution pipeline
       status to perfect the case for prosecution. We reported additional examples that we

                                                                                           Page 14
                         Criminal Investigation Division Resources
                 Devoted to Supporting Recommended Prosecutions Can Be
                        Enhanced With a Stronger Strategic Focus


      believe show how the pipeline investigative time percentage measurement is nearly
      meaningless because of the variety of activities that get attributed to pipeline status. Any
      assumptions about the nature of the investigative time that makes up the prosecution
      pipeline percentage of total investigative time would inherently be misleading without
      determining underlying characteristics. For that reason, we continue to believe that the
      existing performance measures alone do not provide CI Division executives sufficient
      information for making sound business decisions.
Recommendation 4: Ensure that necessary information is added to the quarterly Business
Performance Reviews to provide the IRS Commissioner a clear depiction of investigative
resources devoted to prosecution pipeline inventory activities.
      Management’s Response: IRS management disagreed with this recommendation
      and will continue to rely on observations and comments provided by the Deputy
      Commissioner for Services and Enforcement to supplement pipeline inventory
      information contained in the Business Performance Review. CI Division management
      (and the Commissioner’s Office) is aware that seeing a case through prosecution requires
      significant steps beyond making a prosecution recommendation. Extensive pipeline
      analyses and Business Performance Review talking points are provided to the
      Chief, Criminal Investigation, Deputy Chief, and Directors, as needed, for
      reference/discussion in delivering the Business Performance Reviews to the Deputy
      Commissioner for Services and Enforcement.
      Office of Audit Comment: We understand that CI Division management and the
      Commissioner’s Office are aware of the degree to which special agents continue to assist
      Federal prosecutors beyond making a prosecution recommendation. However, as
      explained in the report and in our comment regarding management’s response to
      Recommendation 3, we believe escalating volumes and percentages in the prosecution
      pipeline performance measures do not clearly depict to what extent the CI Division’s
      ability to balance its investigative workload is hindered by the requirements of successful
      adjudication of a case. Considering that a variety of investigative activities are applicable
      to prosecution pipeline status cases, resource use attributed to the pipeline cannot safely
      be assumed to be for the relatively advanced stages of administering the pipeline
      inventory or preparing the Government’s case for indictment or trial. We believe the
      CI Division’s manner of reporting their concerns about the demand for resources required
      to manage pipeline inventory could imply that pipeline inventory investigative time
      primarily relates to the advanced stages of prosecution. We do not believe that to be an
      accurate depiction. As reported, while the Business Performance Reviews are not
      publicly disseminated, it is possible that the statistics and statements could be conveyed
      to outside stakeholders.




                                                                                          Page 15
                                Criminal Investigation Division Resources
                        Devoted to Supporting Recommended Prosecutions Can Be
                               Enhanced With a Stronger Strategic Focus


                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the growth in the CI Division’s prosecution
pipeline inventory 1 and identify any potential actions that could be taken to reduce the resources
devoted to this area. To accomplish our objective, we:
I.         Determined the ways in which prosecution pipeline inventory issues could diminish the
           CI Division’s ability to initiate new cases, complete ongoing cases, or otherwise sustain
           positive productivity levels in the future.
           A. Interviewed CI Division National Headquarters personnel and obtained their
              perspective regarding current conditions, circumstances, and influences and how the
              growth in prosecution pipeline inventory has affected the Division’s ability to meet
              program goals.
           B. Interviewed three assigned Special Agents in Charge and seven assigned Assistant
              Special Agents in Charge in the field offices judgmentally selected in Step III.A. and
              obtained their perspectives about the context and the hindering influence of
              prosecution pipeline inventory issues relative to other factors also detrimental to their
              performance.
           C. Interviewed 10 Supervisory Special Agents in the judgmentally selected field offices
              focusing on the general impact on the local program.
           D. Interviewed representatives from the DOJ, Tax Division and from the Executive
              Office of the USAO in Washington, D.C., and determined if the CI Division’s efforts
              to coordinate with their office facilitates a high degree of acceptance of criminal tax
              referrals for prosecution.
           E. Interviewed six representatives from Judicial Districts that correspond with the
              judgmentally selected field offices in the USAOs from the Northern District of
              Illinois (Chicago, Illinois); the Southern District of New York (Manhattan,
              New York); the Eastern District of New York (Brooklyn, New York); and the
              Eastern District of North Carolina (Raleigh, North Carolina) and determined if the
              CI Division’s efforts to coordinate with these offices facilitates a high degree of
              acceptance of criminal referrals for prosecution and subsequent timely case
              resolution.



1
    See Appendix VII for a glossary of terms.
                                                                                               Page 16
                          Criminal Investigation Division Resources
                  Devoted to Supporting Recommended Prosecutions Can Be
                         Enhanced With a Stronger Strategic Focus


       F. Evaluated the CI Division’s prior and current efforts to resolve the prosecution
          pipeline growth by reviewing the 10 most recently conducted field office Review and
          Performance Evaluations and the quarterly Business Performance Reviews for
          FYs 2006 through 2009.
II.    Determined statistical trends and the correlation between prosecution pipeline issues and
       program performance measurements.
       A. Obtained an extract of the CIMIS as of July 31, 2008, and determined if the CIMIS
          tracks sufficient data to enable management to manage and monitor the resources
          expended on managing the prosecution pipeline inventory.
       B. Requested and received illustrations using current CIMIS data that showed case
          initiations, completions, cycle time, and other relevant productivity measures.
III.   Determined the nature of investigative time and other resources that are required to
       manage the prosecution pipeline inventory to evaluate if they are used efficiently.
       A. Using the CIMIS data, we determined that the population of cases in the prosecution
          pipeline was 4,152 as of July 31, 2008. We judgmentally selected three CI Division
          field offices for site visitations. These locations included Chicago, Illinois;
          New York, New York; and Charlotte, North Carolina. The principle factors used for
          selecting the field offices were prosecution pipeline inventory levels of cases and
          investigative time invested on cases.
       B. Reviewed detailed CIMIS data to identify the attributes of the local prosecution
          pipeline inventory in the three audit sites to the case-by-case level.
          1. Using these data for the 3 selected sites, we judgmentally selected a sample of
             53 nongrand jury cases from 137 cases in inventory as of July 31, 2008. After
             discussion with CI Division management, we determined nine cases were since
             classified as grand jury. In addition, we excluded five cases because they were
             related to another in the sample and one case because we did not receive the
             documentation timely. Our case review consisted of 38 cases. We used a
             judgmental sample in this Step and in Step III.A. because we did not plan to
             project our results.
              a. Obtained and reviewed the case file source documents and reconciled
                 investigative time charges to case agent history notes and workload.
              b. Interviewed 10 Supervisory Special Agents from the 3 audit sites to
                 determine:
                  i. The type of actions taken by the special agents on the 38 cases while in
                     prosecution pipeline status.
                  ii. If the actions taken are at the direction of USAO personnel.
                                                                                         Page 17
                          Criminal Investigation Division Resources
                  Devoted to Supporting Recommended Prosecutions Can Be
                         Enhanced With a Stronger Strategic Focus


                  iii. Why would some cases (grand jury or nongrand jury) have the majority of
                       their investigative time charged while in the prosecution pipeline?
IV.    Did not conduct audit tests to determine the accuracy and reliability of the CIMIS data
       we received from the CI Division. In prior audits, our overall assessment has been that
       CIMIS data are of undetermined reliability. However, in our opinion, using the data did
       not weaken our analysis. During case reviews, we scanned some of the data and are
       satisfied that the data we used during this review provide a reasonable basis for our
       findings and conclusions.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the CI Division’s policies,
procedures, and practices for managing the prosecution pipeline inventory, including its
automated management information system and established periodic performance review
techniques. We evaluated these controls by interviewing CI Division and DOJ personnel,
reviewing the CI Division’s self assessments contained in its performance reports, and reviewing
selected source documents for a judgmental sample of nongrand jury cases.




                                                                                        Page 18
                         Criminal Investigation Division Resources
                 Devoted to Supporting Recommended Prosecutions Can Be
                        Enhanced With a Stronger Strategic Focus


                                                                           Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Marybeth H. Schumann, Director
Michael J. Hillenbrand, Acting Audit Manager
Diana M. Tengesdal, Audit Manager
Timothy A. Chriest, Lead Auditor
Janice A. Murphy, Senior Auditor
Ahmed M. Tobaa, Senior Auditor
Andrea R. McDuffie, Auditor
LaToya R. Penn, Auditor




                                                                                  Page 19
                          Criminal Investigation Division Resources
                  Devoted to Supporting Recommended Prosecutions Can Be
                         Enhanced With a Stronger Strategic Focus


                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Criminal Investigation SE:CI
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CI:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                    Page 20
                            Criminal Investigation Division Resources
                    Devoted to Supporting Recommended Prosecutions Can Be
                           Enhanced With a Stronger Strategic Focus


                                                                                       Appendix IV

       The Flow of Cases in the Prosecution Pipeline




Source: Internal Revenue Manual and United States Attorney Manual.
 CI Division Responsibilities         Tax Division Responsibilities          USAO Responsibilities
In a tax case, the CI Division       The DOJ Tax Division is a           The USAOs evaluate the
typically makes the initial          national level centralized          strength of the Government’s
selection, gathers and evaluates     control over the flow of tax        legal case and as appropriate
the evidence to determine that a     cases to provide uniformity in      determine the need for
tax crime is present, assembles a    the enforcement of tax laws.        supplemental investigative
prosecution recommendation           The Tax Division reviews and        actions, negotiate pleas, prepare
that is subject to internal          evaluates tax prosecution           the cases for trial, and try the
reviews, and ultimately refers       recommendations, authorizes         cases in court. Nontax cases are
the report and associated            prosecution, and normally refers    usually investigated using a
materials to the DOJ Tax             the case to a USAO to be            grand jury. This means an
Division. In contrast, the IRS       prosecuted. Small portions of       AUSA directs the scope and
refers directly to a USAO those      the authorized cases are kept for   oversees the progress of the
financial cases involving only       preparation and trial by            case. The USAOs have broad
nontax violations within the         attorneys within the Tax            discretion in managing their
CI Division’s jurisdiction.          Division or the two DOJ             casework and generally can
                                     components may handle a             decide to prosecute or not to
                                     prosecution jointly.                prosecute in nontax cases.
                                                                         However, authorized tax
                                                                         prosecutions cannot be declined
                                                                         without Tax Division approval.




                                                                                                 Page 21
                                  Criminal Investigation Division Resources
                          Devoted to Supporting Recommended Prosecutions Can Be
                                 Enhanced With a Stronger Strategic Focus


                                                                                                                        Appendix V

                            Criminal Investigation Division
                               Performance Statistics                                                1




Number of Subject Investigations Initiated, Referred for Prosecution, Indicted, and
Convicted Each Fiscal Year. Because actions on a specific investigation may cross fiscal
years, the data shown in investigations initiated may not always represent the same universe of
investigations shown in other actions within the same fiscal year.


                                                                                 4,269                     4,211
     4,500
                                      3,906                       3,917                     3,907
     4,200                                           4,001
                                                                                                                        3,749
     3,900
              3,372
     3,600
                          3,284
                                                                  3,037
     3,300
                                                                                                                        2,785
                                                                                 2,859                     2,837
     3,000
                                                                                            2,720
              2,434                                  2,541
     2,700
                          2,335       2,133                              2,489                                            2,547
                  2,469                                                             2,406
     2,400                                                                                      2,319
                              2,292                  2,128                                                      2,323
     2,100    2,249       2,251        1,926
                                                                                 2,151                     2,155        2,144
     1,800
                                       1,924                      2,008                     2,019
                                                    1,824
     1,500
              FY 00       FY 01       FY 02         FY 03         FY 04          FY 05      FY 06         FY 07         FY 08

                          Initiated           Referred for Prosecution           Indicted           Convicted

    Source: IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV001 (Criminal
    Investigation Summary Statistics) for FYs 2006 through 2008.




1
 Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities for Fiscal Years 2000
Through 2008, page 31 (Reference Number 2009-30-053, dated March 26, 2009).
                                                                                                                                  Page 22
                                                               Criminal Investigation Division Resources
                                                       Devoted to Supporting Recommended Prosecutions Can Be
                                                              Enhanced With a Stronger Strategic Focus


                                                                                                                                                                                     Appendix VI

                                                Status of 4,152 Prosecution Pipeline
                                                     Cases As of July 31, 2008

                         Nontax Cases                            Tax Cases                             At the Tax Division from the IRS, Awaiting Authorization

                                                                       448
                                                                                                       At a USAO from the Tax Division, Not Yet Indicted
                        1306
                                                                                            908
                                                                                                       At a USAO from the Tax Division, Has Been Indicted

                                                                                                       At a USAO from the IRS, Not Yet Indicted
                                    753                                     737

                                                                                                       At a USAO from the IRS, Has Been Indicted


                 Source: Our analysis of the CIMIS.

                                              Calendar Days                                                                                          Investigative Hours

                                   2,093 Tax Cases - Calendar Days in the Pipeline                                                    2,093 Tax Cases - Investigative Hours in the Pipeline
                      300                                                                                                       600
                                                                                                             Number of Cases
    Number of Cases




                      250                                                                                                       500
                      200                                                                                                       400

                      150                                                                                                       300

                      100                                                                                                       200

                       50
                                                                                                                                100
                                                                                                                                 0
                        0
                            < 50 Days 50-180 Days 180 Days- 1 1-2 Years      2-3 Years   3+ Years                                     < 50 Hours    50-100       100-200        200-300    300-400      >400
                                                    Year                                                                                            Hours        Hours          Hours      Hours       Hours

                      At Tax Division   Tax At USAO - Not Indicted   Tax At USAO - Has Been Indicted                            At Tax Division    Tax At USAO - Not Indicted     Tax At USAO - Has Been Indicted



•                     Tax Cases – 63 percent of those at the Tax
                                                                                                         •                     Tax Cases – 69 percent of those at the Tax Division and
                      Division had been referred for 180 calendar days
                                                                                                                               53 percent of those at a USAO but not yet indicted had
                      or less, 47 percent of those at a USAO but not yet
                                                                                                                               50 investigative hours or less accrued after being referred,
                      indicted had been referred more than 1 year ago,
                                                                                                                               and 58 percent of those at a USAO and indicted had more
                      and 39 percent of those at a USAO and indicted
                                                                                                                               than 200 investigative hours accrued after being referred.
                      had been referred more than 2 years ago.




                                                                                                                                                                                                     Page 23
                                                          Criminal Investigation Division Resources
                                                  Devoted to Supporting Recommended Prosecutions Can Be
                                                         Enhanced With a Stronger Strategic Focus



                                          Calendar Days                                                                              Investigative Hours

                                                                                                                            2,059 Nontax Cases - Investigative Hours in the Pipeline
                            2,059 Nontax Cases - Calendar Days in the Pipeline
                                                                                                                      600




                                                                                                    Number of Cases
                      350                                                                                             500
    Number of Cases




                      300                                                                                             400
                      250
                                                                                                                      300
                      200
                      150                                                                                             200
                      100                                                                                             100
                       50                                                                                              0
                        0
                                                                                                                             < 50    50-100    100-200   200-300    300-400      >400
                             < 50 Days   50-180   180 Days- 1-2 Years   2-3 Years    3+ Years
                                                                                                                            Hours    Hours     Hours     Hours      Hours       Hours
                                         Days      1 Year
                                                                                                          NonTax At USAO - Not Indicted           NonTax At USAO - Has Been Indicted
                NonTax At USAO - Not Indicted          NonTax At USAO - Has Been Indicted




                                                                                                •       Nontax Cases – 56 percent of those at a USAO but not yet
•                     Nontax Cases – 39 percent of those at a USAO but
                                                                                                        indicted had 50 investigative hours or less accrued after
                      not yet indicted and 51 percent of those at a
                                                                                                        being referred and 47 percent of those at a USAO and
                      USAO and indicted had been referred more than
                                                                                                        indicted had more than 100 investigative hours accrued
                      1 year ago.
                                                                                                        after being referred.




                                                                                                                                                                              Page 24
                           Criminal Investigation Division Resources
                   Devoted to Supporting Recommended Prosecutions Can Be
                          Enhanced With a Stronger Strategic Focus


                                                                                  Appendix VII

                                 Glossary of Terms

Business Performance Review – The process establishes a framework for measuring, reporting,
and reviewing a business unit’s performance against plans established within the Strategic
Planning and Budget process. Reported quarterly to the IRS Commissioner’s Office, the
Business Performance Review is one of several communication vehicles which provide insight
into the “big picture,” as well as previews of potential future workloads.
Field Office – Offices within the four CI Division geographical areas throughout the country
with boundaries that range from a portion of a single State to inter-State areas. There were
26 CI Division field offices at the time of our audit. Each field office has a special agent in
charge to direct, monitor, and coordinate the criminal investigation activities within that office’s
area of responsibility. Several post-of-duty cities are located within each field office.
Indict/Indictment – The official written accusation on behalf of the government outlining
charges against a person accused of a criminal offense.
Grand Jury Investigative Process – When attorneys of the USAOs direct the course of an
investigation and present evidence to a body of citizens (the jurors of a grand jury) who then
determine whether there is probable cause to believe a crime was committed. The courts over
the years have established special investigative powers that can make using a Federal grand jury
more efficient than not having a prosecutor involved during the investigation. The grand jury
process has a secrecy rule under the Federal Rules of Criminal Procedure, 18 U.S.C. Rule 6.
Special agents working under the direction and authority of a prosecutor cannot disclose matters
occurring before the grand jury. Due to the nature of nontax crimes within the CI Division’s
jurisdiction, most cases are conducted jointly with at least one other Federal Government law
enforcement agency and use the grand jury process to facilitate the cases.
Open Case Inventory – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the IRS where a determination has not yet been made
whether a crime was committed or the case warrants a recommendation for prosecution.
Prosecution Pipeline Inventory – Cases where the IRS CI Division has made criminal
prosecution recommendations and the DOJ has either 1) not declined the case for prosecution or
2) not yet completed the legal process to arrive at a conviction, acquittal, or dismissal in court.
In other words, the CI Division’s prosecution pipeline inventory is part of the “open inventory”
at the DOJ (Tax Division) or at a USAO. The CI Division’s role in prosecution pipeline status
cases is to assist DOJ attorneys to prepare the Federal Government’s case for indictment and
possible trial. The calculation of prosecution pipeline statistics does not include fugitives, cases
awaiting sentencing, or cases under appeal.

                                                                                             Page 25
                          Criminal Investigation Division Resources
                  Devoted to Supporting Recommended Prosecutions Can Be
                         Enhanced With a Stronger Strategic Focus


Special Agent – A duly sworn CI Division Federal Government law enforcement officer trained
as a financial investigator.
Tax Gap - The difference between the annual Federal tax obligation and the amount of tax the
taxpayer pays voluntarily and timely.




                                                                                       Page 26
             Criminal Investigation Division Resources
     Devoted to Supporting Recommended Prosecutions Can Be
            Enhanced With a Stronger Strategic Focus


                                               Appendix VIII

Management’s Response to the Draft Report




                                                       Page 27
        Criminal Investigation Division Resources
Devoted to Supporting Recommended Prosecutions Can Be
       Enhanced With a Stronger Strategic Focus




                                                  Page 28
        Criminal Investigation Division Resources
Devoted to Supporting Recommended Prosecutions Can Be
       Enhanced With a Stronger Strategic Focus




                                                  Page 29
        Criminal Investigation Division Resources
Devoted to Supporting Recommended Prosecutions Can Be
       Enhanced With a Stronger Strategic Focus




                                                  Page 30
